                                                                                                                        iloseout
                                                               NATIONAL SCIENCE FOUNDATION
                                                                  4201 WILSON BOULEVARD
                                                                 ARLINGTON, VIRGINIA 22230




                       OFFICE OF
                   INSPECTOR GENERAL




                  MEMORANDUM

                  Date:              September 15, 1998
..........   ..-..-...-.......-...   .-...   ..   ..........      . . . .   ...._I...   .............................   . . . . . . . - - . . . . - - . .   . - - . . . . . - . . . . .   -....,.. . . . . . . . .   -.   - .-

                  To:                File No. I98070013

                  From:                                                                 nt, Investigations _Section


                  Through:
                                                                                                                 s
                                                                                         t-in-Charge; Investigations Section

                  Re:


              ;   Backprroun'd:

                  On July 14, 1998, our office received information from an NSF program officer that                                                        e
               E!P             had possibly submitted duplicate proposals to the Department of Energy (DOE) and
                           under the Small Business and Innovation Research (SBIR) Program. The program
                  officer obtained a copy of the DOE proposal, which had,been funded. Both the DOE and NSF
                  program officers noted the similarities between both prdposals. Another NSF program officer
                  conducted a technical review of the proposals, and also noted many similarities, except for a
                  difference in the polymers being prepared for each project.



               We reviewed both proposals, and found that                                                     did not disclose a similar DOE
               proposal in the one sent to NSF. We did fin                                                      a DOE project was mentioned in the




               We interviewed the Principal Investigator (PI) of the NSF proposal,
               another-employee -             and counsel. They told us that the
               not overGping. They stated that they were attempting to solve they same problem, but using a
different chemistry and forming a different fuel cell for each project. They asserted they were
not required to disclose the proposals, as required in the NSF solicitation.

On August 20, 1998, an NSF panel reviewed the NSF proposal, and did not rank it high enough
to receive funding. This proposal is expected to be declined.

Findings:

Because these proposals are not 100% duplicative, there appears to be partial disclosure of the
DOE project to NSF, and the NSF proposal will most likely be declined, no further investigation
is wii-fiiited-at this time. -This case is closed.
